No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
CHRISTINA ELIZABETH PANDEY,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
August 12, 2020

No. 20-10246
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Christina Elizabeth Pandey,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CR-38-1
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Appealing the judgment on revocation of supervised release, Christian
Elizabeth Pandey argues, for the first time on appeal, that the district court
erred by applying 18 U.S.C. § 3583(g), which mandates revocation of
supervised release where a defendant violates the conditions of supervised

*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should
not be published and is not precedent except under the limited circumstances set forth in
5TH CIR. R. 47.5.4.

No. 20-10246

release by unlawfully possessing a controlled substance. Relying on United
States v. Haymond, 139 S. Ct. 2369 (2019), Pandey contends that § 3583(g) is
unconstitutional because it requires revocation of a term of supervised
release and imposition of a term of imprisonment without affording the right
to a jury trial. Pandey concedes that her argument is foreclosed under
existing circuit precedent but raises the issue to preserve it for further
possible review.
The Government has filed an unopposed motion for summary
affirmance, asserting that the only issue on appeal is foreclosed by the
decision in United States v. Badgett, 957 F.3d 536 (5th Cir. 2020). In the
alternative, the Government moves for an extension of time to file its brief.
The Supreme Court held in Haymond that revocation of supervised
release and imposition of a mandatory minimum sentence pursuant to 18
U.S.C. § 3583(k), based on judge-made findings by a preponderance of the
evidence, violated due process and the right to a trial by jury. Haymond, 139
S. Ct. at 2378-83. However, the Haymond plurality emphasized that its
decision was limited to § 3583(k). Haymond, 139 S. Ct. at 2382-84 & n.7. In
Badgett, we held that because Haymond had not been extended to § 3583(g)
revocations, the district court did not plainly err in applying the statute. See
Badgett, 957 F.3d at 540-41.
Because the only issue on appeal is foreclosed, see id., summary
affirmance is appropriate, see Groendyke Transp., Inc. v. Davis, 406 F.2d 1158,
1162 (5th Cir. 1969). Accordingly, the Government’s motion for summary
affirmance is GRANTED, the Government’s alternative motion for an
extension of time to file a brief is DENIED, and the judgment of the district
court is AFFIRMED.

2

APPENDIX B

Case 4:18-cr-00038-A Document 23 Filed 02/20/20

Page 1 of 6 PageID 181

Case 4:18-cr-00038-A Document 23 Filed 02/20/20

Page 2 of 6 PageID 182

Case 4:18-cr-00038-A Document 23 Filed 02/20/20

Page 3 of 6 PageID 183

Case 4:18-cr-00038-A Document 23 Filed 02/20/20

Page 4 of 6 PageID 184

Case 4:18-cr-00038-A Document 23 Filed 02/20/20

Page 5 of 6 PageID 185

Case 4:18-cr-00038-A Document 23 Filed 02/20/20

Page 6 of 6 PageID 186

